GR-50-98-031
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Red Lake Band of Chippewa Indians, Red Lake, Minnesota
Award Numbers 95-CF-WX-5829 and 96-CM-WX-0254
 
Audit Report Number GR-50-98-031
 
September 30, 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Red Lake Band of Chippewa Indians (RLBCI). The RLBCI
received grants of $697,448 to hire or rehire nine additional sworn police officers under
the Funding Accelerated for Smaller Towns (FAST) and Universal Hiring Programs (UHP). The
RLBCI also received $32,522 under the Making Officer Redeployment Effective (MORE) program
to fund overtime. The purpose of the additional officers and overtime funds was to enhance
community policing efforts.

In brief, our audit determined the RLBCI:



Supplanted local funding with federal funds totaling $115,418.




Charged unallowable costs of $41,424 to the grants.




Generally was not in compliance with grant reporting requirements. 




Had no written plan to retain the officers when the grants expire, resulting in funds of
      $161,004 that could be put to better use. 


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####